 Office of Inspector General
     Audit Report


    FRA HAS MADE PROGRESS IN
IMPLEMENTING PRIIA RESPONSIBILITIES
  BUT CHALLENGES FOR LONG-TERM
          HSIPR REMAIN
       Federal Railroad Administration

        Report Number: CR-2012-072
         Date Issued: March 6, 2012
           U.S. Department of
                                                                Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: FRA Has Made Progress in                                               Date:    March 6, 2012
           Implementing PRIIA Responsibilities But
           Challenges for Long-Term HSIPR Remain
           Federal Railroad Administration
           Report Number: CR-2012-072
  From:    Mitch Behm                                                                  Reply to
                                                                                       Attn. of:   JA-50
           Assistant Inspector General
            for Rail, Maritime, and Economic Analysis
    To:    Federal Railroad Administrator
           The Passenger Rail Investment and Improvement Act of 2008 1 (PRIIA)—the first
           passenger rail authorization to be enacted since 1997—calls for significant
           improvements to the Nation’s intercity passenger rail system, including the
           development of high-speed rail corridors. The Act gives the Federal Railroad
           Administration (FRA) important new responsibilities, including creating a high-
           speed intercity passenger rail (HSIPR) $10 billion grant program and developing a
           long-range National Rail Plan (NRP) that should, among other things, define how
           intercity passenger rail fits into the national transportation system. These new
           responsibilities have greatly expanded FRA’s role in developing and managing the
           Nation’s rail system. As we have previously reported, the Agency now faces
           several new challenges, including the development of policies to guide its new
           grant programs. 2 Additional funding provided through the American Recovery and
           Reinvestment Act of 2009 3 (ARRA) exacerbates these challenges given ARRA’s
           short timelines for implementation of the HSIPR grant program.

           PRIIA Section 221 requires that our office assess DOT and Amtrak’s progress in
           implementing the Act’s provisions within 3 years of enactment. Based on
           discussions with congressional staff, we focused our audit on FRA’s
           implementation, while Amtrak’s Inspector General assumed responsibility for the
           assessment of Amtrak’s implementation efforts. Our analysis identified 29 PRIIA

           1
               P. L. No.110-432 Div. B.
           2
               OIG Testimony Number CC 2010-050, "Federal Railroad Administration Faces Challenges in Carrying Out
               Expanded Role," April 29, 2010. OIG reports and testimonies are available on our Web site at www.oig.dot.gov.
           3
               P.L. No. 111-5.


           Appendix. Agency Comments
                                                                                                                  2


responsibilities that FRA must implement. 4 The objectives of our audit were to
(1) evaluate FRA’s progress in implementing its PRIIA responsibilities and
(2) determine how the status of FRA’s implementation of its PRIIA
responsibilities impacts the improvement and expansion of intercity passenger rail.
We conducted this audit in accordance with generally accepted Government
auditing standards. Exhibit A provides details on our scope and methodology.

RESULTS IN BRIEF
FRA has implemented 25 of its 29 PRIIA responsibilities. Most notably, FRA has
made significant progress on those intended to improve its oversight of Amtrak’s
financial and business management and service quality, such as reviewing and
approving Amtrak’s Capital Plan. However, FRA has yet to complete several key
PRIIA responsibilities that could significantly impact HSIPR development. These
include issuing an NRP, promulgating grant rules, and conducting rail-related
research studies.

Without full implementation of all its key PRIIA responsibilities, FRA faces
additional challenges in improving and expanding intercity passenger rail. In
particular, because FRA has not completed an NRP, it cannot provide a blueprint
that clarifies high speed rail’s future role in the national transportation system. As
a result, public and private stakeholders have been reluctant to move forward and
commit funds. The lack of an NRP has also delayed action on some of FRA’s
other PRIIA responsibilities, such as establishing a process to modify existing
high-speed rail corridors. Furthermore, FRA has obligated over half of its
$10 billion HSIPR grant program based on interim guidance that does not provide
details for applicants on how to prepare reasonable ridership and revenue
forecasts, public benefit valuations, and operating cost estimates. Consequently, it
is difficult for FRA to objectively assess applicants when awarding grants among
competing projects or the net benefits of its high-speed rail investments. Finally,
FRA’s delays in conducting PRIIA-required rail industry research has stalled the
potential development of new technologies and operational and management
improvements.

We are making a series of recommendations to assist FRA in fully implementing
PRIIA and strengthening intercity passenger rail.




4
    PRIIA includes 48 Sections, 22 of which direct the FRA to complete 29 responsibilities. For additional detail on
    audit methodology used to define responsibilities, see Exhibit A.
                                                                                                            3


BACKGROUND
In 2008, PRIIA established requirements for Amtrak, the Department of
Transportation, FRA, the States, and other stakeholders to improve rail service,
operations, and facilities throughout the country. PRIIA focuses on intercity
passenger rail—including Amtrak’s long-distance routes and the Northeast
Corridor (NEC)—State-sponsored corridors throughout the Nation, and the
development of designated high-speed rail corridors.

PRIIA dramatically expanded FRA’s role in managing the Nation’s passenger rail
system. Historically, FRA focused on developing and implementing railroad
safety regulations, administering small grant and loan programs, overseeing
Amtrak’s operations, and disbursing Amtrak’s annual grant funds. Under PRIIA,
FRA must now lead new passenger rail service enhancement initiatives and
develop a multibillion-dollar high-speed rail discretionary grant program. PRIIA
has also increased FRA’s Amtrak oversight role. Additionally, the Rail Safety
Improvement Act of 2008 5 (RSIA)—PRIIA’s companion statute—requires FRA
to undertake new safety initiatives, including developing a long-term railroad
safety improvement strategy and establishing a discretionary grant program that
will support development and deployment of safety technologies. 6

FRA’s expanded grant administration responsibilities under PRIIA became further
complicated when—just months later—ARRA provided $8 billion and short
timelines for the implementation of grant programs to jump-start new high-speed
rail corridors and enhancements for intercity services. As illustrated in figure 1,
ARRA’s appropriations increased funding for FRA’s capital grants to a level that
the Agency did not anticipate based upon PRIIA’s authorizations for 2009 through
2013.




5
    P.L. No.110-432 Div. A
6
    RSIA also requires 17 separate rulemakings that deal with a variety of safety-related issues, ranging from
    specifications and implementation guidelines for positive train control technologies to bridge inspection,
    maintenance, and management requirements.
                                                                                                        4


Figure 1. FRA’s PRIIA Capital Grant Funding Authorizations and
Appropriations, Including ARRA
                                2007   2008    2009      2010        2011      2012        2013
                       $9,000                 $8,090
                       $8,000
                       $7,000
                       $6,000
    ($ in millions)



                       $5,000
                       $4,000
                       $3,000                           $2,500
                       $2,000
                       $1,000   $0     $30
                           $0
                      -$1,000                                        -$400
                                                       Fiscal Year

                                        Appropriated          Authorized

Source: OIG analysis of PRIIA, FYs 2007, 2008, 2009, 2010, and 2011 Appropriations Acts, and ARRA.
Note: The Fiscal Year 2011 Appropriations Act rescinded $400,000 from prior years’ unobligated funds.


FRA HAS MADE PROGRESS IN IMPLEMENTING PRIIA
RESPONSIBILITIES, BUT KEY HSIPR PLANNING EFFORTS
REMAIN INCOMPLETE

FRA has completed 10 PRIIA responsibilities and is progressing on 15 more. The
10 completed responsibilities include enhanced Amtrak oversight as well as
development of metrics and minimum standards for measuring intercity passenger
service, performance, and quality. The 15 PRIIA responsibilities in progress
include issuance of an NRP as well as new regulations for the high-speed rail
corridor program. Once complete, these efforts will help expedite decision making
for rail capital projects. The four responsibilities that FRA has not started include
key planning issues, such as developing a process to designate or extend high-
speed rail corridors as well as a schedule for achieving specific performance goals.

FRA Has Completed Ten of Its PRIIA Responsibilities

FRA has completed 10 of its PRIIA responsibilities, with significant progress
toward those related to Amtrak oversight. PRIIA requires FRA to implement
activities to improve the Agency’s oversight of Amtrak’s financial and business
management, service quality, and capital asset management. Specifically, FRA
has completed the following:

  • Reviewed and approved Amtrak’s grant request,
                                                                                                              5


    • Reviewed and approved Amtrak’s Capital Plan, and
    • Established the Northeast Corridor Infrastructure and Operations Advisory
      Commission. 7

FRA has also made progress on other Amtrak oversight responsibilities. These
include publishing quarterly reports on intercity train operations’ performance and
service quality, monitoring Amtrak’s improvement plans for long-distance routes,
and monitoring and reviewing Amtrak’s compliance with the Americans with
Disabilities Act of 1990 and the Rehabilitation Act of 1974. Table 1 summarizes
FRA’s completed PRIIA responsibilities.

Table 1. FRA’s Completed PRIIA Responsibilities

           Completed                           In Progress                         Not started
PRIIA Section FRA Responsibility                                                                    Status
§ 206              Review and approve Amtrak's grant requests                                          
§ 207              Develop new or improve existing metrics and minimum                                 
                   standards
§ 211              Review and approve Amtrak's Capital Plan                                            
§ 212              Establish a Northeast Corridor Infrastructure and Operations                        
                   Advisory Commission
§ 214              Complete a rulemaking to develop a pilot passenger rail                             
                   program
§ 301              Make grants to assist in financing the capital costs necessary                      
                   to provide or improve intercity passenger rail transportation
§ 302              Make grants to assist in financing the capital costs for high                       
                   priority rail corridor projects to reduce congestion or facilitate
                   ridership growth
§ 406              Establish procedures and/or facilities for preclearance of                          
                   passengers traveling from the U.S. to Canada
§ 501              Make grants to finance capital projects in designated high-                         
                   speed rail corridors
§ 502              Issue a request for proposals for projects in any of the 10                         
                   designated high-speed rail corridors or the Northeast Corridor
Completed                                                                                             10
Source: OIG analysis

FRA Is Making Progress on Fifteen Responsibilities, but Has Yet To
Initiate Four

FRA has made limited progress on 15 of its PRIIA responsibilities. These include
key initiatives related to HSIPR: issuing an NRP, developing new rulemakings,
and conducting specific railroad research studies. For example:


7
    The Northeast Corridor Infrastructure and Operations Advisory Commission will promote mutual cooperation and
    planning pertaining to the rail operations and related activities of the Northeast Corridor.
                                                                                                                      6


    • NRP: While FRA met PRIIA’s October 2009 deadline to develop a
      preliminary NRP and issued a report on its progress to Congress in September
      2010, it has yet to issue the completed NRP. FRA officials explained that the
      Agency has not completed the Plan primarily because of its focus on the
      HSIPR program’s grant obligations but that it intends to issue one part of the
      Plan—a section on high-speed and intercity passenger rail—later this year. 8
      However, FRA does not have an expected completion date for the entire plan.

    • New Rulemakings: FRA’s progress on its PRIIA-required regulations has
      been limited. The deadline has already passed for two key rulemakings that
      will govern HSIPR grant programs. In June 2009, FRA issued interim
      guidance on HSIPR grant program procedures, which includes guidance on
      how to assess the viability of proposed projects. According to a senior FRA
      official, the Agency has made limited progress on the PRIIA grant program
      rulemakings because it gave priority to the safety-related rulemakings required
      by RSIA. FRA plans to initiate a comprehensive grant rulemaking once the
      ARRA and fiscal years 2009 and 2010 grants have been awarded.

    • Research Responsibilities: Although FRA has initiated a number of its
      research responsibilities, its progress in this area has also been limited. For
      example, FRA did not meet PRIIA’s deadline of October 2009 to complete
      two research studies, but it did award grants in 2011 to two universities to
      complete them. One study will attempt to determine the extent to which
      railroads can use alternatives to diesel fuel, and the other will assess if it is
      feasible to use bio-based lubricants for railroads. The universities expect to
      complete their work by August 2013. FRA officials state that limited funds for
      railroad research in 2009 prevented them from working on these activities
      before the PRIIA deadlines. FRA has also yet to complete another PRIIA
      requirement calling for an advisory board to help plan research through FRA’s
      newly established National Cooperative Rail Research Program (NCRRP). 9
      The Agency has not yet finalized its board nominations and did not provide a
      date for completion. Without FRA’s appointments to its board, the NCRRP
      cannot begin its research.
FRA has not begun implementation of four PRIIA responsibilities, which include
developing a process to designate and extend high-speed rail corridors. FRA has
not addressed these four because it has prioritized other responsibilities, and
certain prerequisites to initiating these responsibilities have not been completed.

8
    According to FRA officials, the issuance of the Plan's section on high-speed and intercity passenger rail will comply
    with the Fiscal Year 2010 Appropriations Act's requirement that the Agency complete public investment cases for
    high-speed corridor programs before it obligates funds.
9
    FRA established the program through a $5 million grant to the Transportation Research Board. The Board is one of
    six divisions of the National Research Council—a private, nonprofit institution that provides services to the
    Government, the public, and the scientific and engineering communities.
                                                                                                7


Table 2 summarizes the status of these 4 as well as the 15 that are in progress.
Exhibit B provides more details on the Agency’s progress to date.

Table 2. FRA’s PRIIA Responsibilities—In Progress and Not
Started
         Completed                       In Progress                       Not started
PRIIA Section FRA Responsibility                                                       Status
§ 207           Collect data and publish quarterly reports on performance                   
                and service quality
§ 208           Obtain a qualified independent entity to develop and                        
                recommend objective methodologies for Amtrak Route
                decisions
§ 210           Monitor the development, implementation, and outcome of                     
                Amtrak's improvement plans
§ 212           Establish a Northeast Corridor Safety Committee                             
§ 220           Monitor and conduct periodic reviews of Amtrak's compliance                 
                with both ADA and ARRA
§ 301           Issue a final rule establishing application and qualification               
                procedures for intercity passenger rail grants
§ 303           Establish minimum requirements for the preparation and                      
                periodic revision of State rail plans
§ 304           Select and approve a new rail tunnel alignment in Baltimore                 
                and ensure completion of the related environmental review
                process
§ 306           Establish and carry out a rail cooperative research program                 
§ 307           Develop a long-range national rail plan (NRP)                               
§ 404           Report to Congress the results of a study to determine the                  
                extent to which railroads could use bio-fuels as alternatives to
                diesel
§ 405           Report to Congress the results of a feasibility study on the                
                use of readily biodegradable lubricants for railroads
§ 407           Report to Congress on the results of a study and actions to                 
                streamline compliance with historic preservation requirements
                and on actions to expedite decision making for capital
                projects involving properties of disputed historical significance
                in the States of Alaska and North Carolina
§ 501           Issue regulations for the high-speed rail corridor program                  
§ 502           Evaluate high-speed rail corridor proposals                                 
In Progress                                                                             15
§ 215           Develop an employee transition assistance program for                    
                Amtrak employees
§ 224           Submit reports on high-speed rail corridor service studies to               
                Congress
§ 224           Establish a process for designation and extension of high-                  
                speed rail corridors
§ 307           Develop a schedule for achieving specific, measurable                       
                performance goals
Not Started                                                                                 4
Source: OIG analysis
                                                                                   8


FRA’S INCOMPLETE IMPLEMENTATION OF KEY
RESPONSIBILITIES CREATES CHALLENGES FOR INTERCITY
PASSENGER RAIL

FRA’s incomplete implementation of certain PRIIA responsibilities—particularly
the NRP, HSIPR grant rulemaking, and research studies and programs—has
created challenges for the improvement and expansion of intercity passenger rail.
Without a completed NRP, FRA cannot provide a blueprint for interstate
coordination or rail’s role in the national transportation system. Lack of the NRP
has also stalled some of FRA’s other PRIIA responsibilities, including the
establishment of a process to modify existing high-speed rail corridors.
Furthermore, FRA has obligated over half of its $10 billion HSIPR grant program
based on interim guidance that does not provide details for applicants on how to
prepare reasonable ridership and revenue forecasts, public benefit valuations, and
operating cost estimates. Consequently, FRA cannot be sure that it based its
awards on the relative value of competing projects, or that its high-speed rail
investments are prudent. Finally, FRA’s delayed implementation of its research
studies and cooperative research program has stalled the potential development of
new technologies and operational and management improvements.

Lack of a Complete NRP Has Created Uncertainties for Rail
Stakeholders and Stalled Other PRIIA Responsibilities

Without an NRP, States remain uncertain about how interstate rail planning will
be integrated and how those corridors will address national transportation needs.
Consequently, States—which PRIIA tasks with developing their own rail plans
and implementing passenger rail improvement projects—have called for an NRP
that provides a defined, long-term vision of the national intercity passenger rail
network. While more than 30 States completed individual rail plans, they did so
without the benefit of a national blueprint for interstate rail corridors. Therefore,
they encountered challenges planning multistate corridors, particularly in areas of
the country with emerging passenger rail programs, such as the Southwest.

Uncertainty about the Federal role and interstate coordination also makes it
difficult to attract private sector investment. Stakeholder outreach that FRA
conducted for the NRP revealed that the private sector is hesitant to take on the
risks associated with developing goods and services for intercity passenger rail
without defined, long-term public sector commitment to the program.

The lack of a completed NRP has also delayed FRA’s completion of other PRIIA
responsibilities. For example, FRA officials reported that they have been unable
to create a process for States to petition for modification of designated high-speed
rail corridors because this goal relies on the NRP to provide national context and
                                                                                                                    9


perspective for the designation process. Therefore, States do not currently have a
role in the designation process. Additionally, FRA is responsible for creation of a
schedule for achieving measurable performance goals and must estimate funds and
resources needed to accomplish each goal. This performance schedule is a
requirement separate from the NRP, but FRA staff indicated that the completed
NRP will establish the specific goals and the basis for the performance schedule.
Consequently, FRA has not submitted this schedule to Congress, along with an
assessment of progress towards the achievement of each goal, since it was first
required in fiscal year 2010.

FRA Has Yet To Issue Its Regulations for the HSIPR Grant Program

FRA has not published final, detailed regulations since it issued interim guidance
for the HSIPR program in June 2009. Current FRA guidance for grant applications
lacks sufficient detail and clear direction for applicants. Our previous work has
shown that, while the interim guidance included general grant terms and
conditions, application procedures, project safety requirements, quality assurance
procedures, and evaluation criteria, it lacked sufficient detail and clear direction to
applicants. 10 For example, FRA’s guidance informs applicants that it looks at the
quality and reasonableness of revenue and operating and maintenance forecasts
and the reasonableness of estimates for user and non-user benefits; however, the
guidance provides no information on what constitutes sound forecasts, valuations,
and estimates. Although FRA has issued additional guidance through Notices of
Funding Availability, most recently in March 2011, the guidance is still not
sufficiently clear and detailed. 11

Because applicants do not have clear guidance on the grant application process,
FRA may have difficulty conducting objective evaluations of applications and
associated forecasts of investments’ expected public benefits. The economic and
financial viability of any HSIPR project depends primarily on three factors:
expected levels of ridership and revenue, costs, and associated public benefits.
Without reliable valuations of these factors submitted by applicants—particularly
without uniform methodologies for estimating these values—it is difficult for
decision makers to assess projects’ viability and prioritize competing proposals. In
addition, FRA’s metrics, as stated in its interim guidance, are largely qualitative.
For example, “organizational capacity, thoroughness of management plan, and
reasonableness of project completion schedule” are listed as potential factors for
the evaluation of applications. However, FRA did not identify a methodology for
weighing these metrics in the guidance thus making the process more subjective.

10
     DOT-OIG Report Number MH-2010-024, "DOT's Implementation of the American Recovery and Reinvestment
     Act: Continued Management Attention Is Needed To Address Number Oversight Vulnerabilities," November 30,
     2009.
11
     FRA published Notices of Funding Availability in the Federal Register to solicit applications for its HSIPR grant
     program.
                                                                                                              10


The Government Accountability Office (GAO) has also found that information on
project benefits and costs submitted by applicants to the HSIPR program varied in
both quality and comprehensiveness. 12 For example, most applications GAO
analyzed contained only qualitative descriptions of project benefits, omitted
important costs, and frequently lacked key data and methodological information
recommended by the Office of Management and Budget. 13 GAO also noted that a
lack of clear guidance on standard values to use in the estimation of project
benefits was one contributing factor to the inconsistent quality and limited
usefulness of estimates of project benefits and costs.

FRA’s Delay in Conducting PRIIA-Required Research Affects New
Railroad Technologies That Could Improve Intercity Passenger Rail

FRA’s delayed completion of research has in turn delayed its possible use of new
technologies. For example, PRIIA requires FRA to conduct studies of both bio-
fuels and bio-based lubricants. These studies could provide research to enhance
understanding of the effects of the use of bio-fuels on locomotive performance and
lubricants’ effects on health and safety. In addition, FRA’s delays with beginning
rail industry research through the NCRRP—on topics such as safety and new
passenger and freight rail technologies—hinders the NCRRP’s ability to find new
ways to expand the share of international trade traffic that railroads carry. This in
turn could lead to policy, program, or technological changes that might shift traffic
from more energy-intensive modes of transportation to rail.

CONCLUSION
With the passage of PRIIA, FRA was given the daunting task of overseeing the
implementation of the Nation’s high-speed rail system—at a time when a myriad
of programs and projects vie for limited Federal dollars. While FRA has made
notable progress in carrying out its expanded responsibilities with limited
resources, finalizing the National Rail Plan and grant-related rules is critical to
ensuring viable intercity rail plans, interstate cooperation, and sound assessments
of the net benefits of high-speed rail investments.

RECOMMENDATIONS
To ensure that PRIIA is fully implemented and that intercity passenger rail is
strengthened, we recommend that the Federal Railroad Administrator:



12
     GAO Report 11-290, "Intercity Passenger and Freight Rail: Better Data and Communication of Uncertainties Can
     Help Decision Makers Understand Benefits and Trade-Offs of Programs and Policies," February 24, 2011.
13
     OMB Circulars A-4 and A-94 provide guidance on best practices in analyzing costs, benefits—including discount
     rates for estimating the present value of future benefits and costs—and cost effectiveness.
                                                                                   11


 1. Develop a comprehensive action plan, including milestones, to complete all
    outstanding PRIIA responsibilities.

 2. Complete the National Rail Plan and include in it measurable performance
    goals and clear stakeholder roles.

 3. Publish final rules for PRIIA grant programs that include clear, detailed
    directions for prospective applicants.

 4. Confirm the National Rail Cooperative Research Program’s advisory board
    membership and ensure that the members act in a timely manner to initiate
    required research.

AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
RESPONSE

We provided a draft of our report to FRA on January 5, 2012. We received FRA’s
full response on February 16, 2012, which can be found in its entirety in the
appendix of this report.         FRA fully concurred with three of our four
recommendations (1, 3, and 4) and has taken actions to complete recommendation
4, and provided target action dates for completing recommendations 1 and 3.
However, with regard to recommendation 2, FRA concurred-in-part explaining
that the development of the NRP is a continuous process involving multiple
products, among them completed State rail plans. While the Agency provided a
target action date to issue final guidance to States for developing rail plans, it did
not provide a target action date for completing the NRP as stated in the
recommendation.

Agency officials stated that they have developed a 6-year vision and
implementation strategy for high-speed rail in its fiscal year 2012 proposed budget
as well as interim guidance to assist States with rail planning. We appreciate these
efforts, but without a completed NRP, that conveys a long-term Federal
commitment to intercity passenger rail, rail stakeholders are reluctant to commit
and invest. Furthermore, other PRIIA requirements remain incomplete.
Accordingly, we are requesting that FRA provide us with a target action date for
completing the NRP.

ACTION REQUIRED
We consider FRA’s actions for recommendation 4 complete and therefore closed.
We consider FRA’s planned actions and target dates for recommendations 1 and 3
reasonable and therefore resolved but open pending completion of the planned
actions, subject to follow-up provisions in accordance with DOT Order 8000.1C.
We request that within 30 days of this report FRA provide in writing a target
                                                                           12


action date for recommendation 2. We appreciate the courtesies and cooperation
of FRA representatives during this audit. If you have any questions concerning
this report, please call me at (202)366-9970 or Toayoa Aldridge, the Program
Director, at (202) 366-2081.


                                      #

cc:   Audit Liaison, OST, M-1
      Audit Liaison, FRA, RAD-43
                                                                                  13



EXHIBIT A. SCOPE AND METHODOLOGY
We evaluated the progress of the Federal Railroad Administration’s (FRA)
implementation of its responsibilities under the Passenger Rail Investment and
Improvement Act of 2008 (PRIIA) and assessed the impact of any incomplete
responsibilities on intercity passenger rail. This report concludes our audit work to
fulfill the legislative requirement for the Department of Transportation Office of
Inspector General (OIG) to complete an overall assessment of the progress made
by Amtrak management and the Department of Transportation in implementing
the provisions of PRIIA. 1 Based on discussions with Congressional staff, we
focused our audit on FRA’s implementation, while Amtrak’s Inspector General
assumed responsibility for the assessment of the company’s progress in the
implementation of the Act’s Amtrak responsibilities.

To measure FRA’s progress implementing PRIIA, we reviewed each Section of
the Act to identify primary responsibilities that accomplish each Section’s overall
purpose(s), as well as any deadlines. PRIIA consists of 48 Sections that task
Amtrak and FRA with responsibilities such as oversight. In evaluating the
Sections, we found that 22 contained 29 primary responsibilities for FRA. If we
obtained evidence from documents and interviews with agency officials that FRA
completed a primary responsibility, we considered the responsibility completed. If
we obtained evidence that FRA had partially completed a primary responsibility
by completing some procedural steps, we considered the Section in progress. If we
obtained no evidence that FRA had started to address a primary responsibilities or
the associated procedural steps, we considered the primary responsibility not
started.

To determine the impact of incomplete PRIIA responsibilities on intercity
passenger rail, we categorized PRIIA Sections based on functional areas and their
progress status. To assess the causes and impacts of responsibilities’ incomplete
implementation statuses within a given functional area, we used documentation
such as appropriation acts, rulemaking activity published in the Federal Register,
and prior audit work by the Government Accountability Office and OIG. In
addition, we conducted interviews with FRA officials and public and private rail
stakeholders.

We conducted our work from February 2011 through January 2012 in accordance
with generally accepted Government auditing standards. Those standards require
that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit


1
    P.L. 110–432, Division B, § 24310(a).


Exhibit A. Scope and Methodology
                                                                              14


objectives. We believe that the evidence obtained provides a reasonable basis for
our findings and conclusions based on our audit objectives.




Exhibit A. Scope and Methodology
                                                                                        15


EXHIBIT B. FRA’S PROGRESS IN IMPLEMENTATION OF ITS
PRIIA RESPONSIBILITIES
                 Completed           In Progress           Not started


   PRIIA Section         FRA Responsibility and Progress to Date                  Status

        § 206            Review and approve Amtrak’s grant requests
Establishment of Grant   FRA established initial requirements and submitted a       
        Process          requisite letter to Congress on December 22, 2008.

                         Develop new or improve existing metrics and
        § 207            minimum standards
                                                                                    
Metrics and Standards    FRA issued a final version of the metrics and
                         standards on May 12, 2010.

                         Collect data and publish quarterly reports on
                         performance and service quality
        § 207            FRA collected the necessary data and published its
                         first quarterly report on performance and service          
Metrics and Standards
                         quality of intercity passenger train operations on
                         March 3, 2011. As of January 18, 2012, three
                         additional reports have been published.

                         Obtain a qualified independent entity to develop
                         and recommend objective methodologies for
                         Amtrak Route decisions
        § 208
                         FRA stated that while it engaged the Volpe Center in
  Methodologies for
                         September 2009—several months after the mandated           
  Amtrak Route and
                         deadline—it used the funding for this contract on
  Service Planning
                         National Rail Plan efforts. FRA considers the National
      Decision
                         Rail Plan a prerequisite for Sec. 208, since it should
                         provide facts, policy, and guidance that will provide
                         the foundations of many other requirements.

                         Monitor the development, implementation, and
                         outcome of Amtrak’s improvement plans
                         FRA has monitored the plans to assure their
        § 210
                         development and publication according to PRIIA’s           
Long-Distance Routes     schedule. Implementation of the initial plans has only
                         recently begun. Amtrak published the Performance
                         Improvement Plans for the middle third of its fifteen
                         long-distance routes in September 2011.




Exhibit B. FR A's Pr ogress in Implementation of Its PRII A
Responsi bilities
                                                                                         16



   PRIIA Section         FRA Responsibility and Progress to Date                   Status

                         Review and approve Amtrak’s Capital Plan
                         FRA has approved Amtrak’s NEC State-of-Good-
                         Repair Plan that includes a comprehensive capital
                         investment program published on April 15, 2009. It
        § 211            has also directed Amtrak to submit monthly and
                         quarterly reports on its capital project status. FRA        
 NEC State-of-Good-
                         reviews the scope and budgets of all of Amtrak’s
    Repair Plan
                         proposed projects, including for NEC. At quarterly
                         review    meetings     with   Amtrak’s     Engineering
                         Department, FRA reviews all proposed NEC capital
                         expenditures against the Plan, both before and after
                         approval.

                         Establish a Northeast Corridor Infrastructure and
                         Operations Advisory Commission
        § 212
                         FRA established the Commission, with members from
NEC Infrastructure and                                                               
                         Amtrak, NEC States, and USDOT. Freight railroads
     Operations
                         are represented as non-voting members. As of
   Improvements
                         January 18, 2012, the Commission had met five
                         times.

        § 212            Establish a Northeast Corridor Safety Committee
NEC Infrastructure and   The committee has been established under the                
     Operations          auspices of the FRA Office of Safety. Its first meeting
   Improvements          is scheduled for February 22, 2012.

                         Complete a rulemaking to develop a pilot
        § 214            passenger rail program
Alternative Passenger    FRA issued a final rule on December 14, 2011, more          
   Rail Service Pilot    than 2 years after the PRIIA imposed deadline of
       Program           October 16, 2009. The final rule is effective on
                         February 13, 2012.

                         Develop an employee transition assistance
                         program for Amtrak employees
                         FRA has not issued regulations under this Section
                         because no alternative passenger rail service has
                         been proposed pursuant to Sec. 214. PRIIA did not
        § 215
                         establish a deadline for this Section. According to
 Employee Transition     FRA, if implemented by the Secretary, Sec. 215 would        
   Performance           provide affected employees a one-time lump sum
                         payment as an option in lieu of labor protection pay.
                         The employees would not have to accept the one-time
                         payment, but if they do, the total amount of labor
                         protection payments that Amtrak would otherwise owe
                         to adversely affected employees would be reduced.




Exhibit B. FR A's Pr ogress in Implementation of Its PRII A
Responsi bilities
                                                                                         17




   PRIIA Section        FRA Responsibility and Progress to Date                    Status

                        Monitor and conduct periodic reviews of Amtrak’s
                        compliance with both ADA and Rehabilitation Act
                        of 1974
                        FRA’s Office of Civil Rights and Office of Railroad
                        Policy and Development work cooperatively to monitor
                        and review Amtrak’s compliance with applicable
                        accessibility requirements. Amtrak’s current plan for
       § 220
                        compliance with the Americans with Disabilities Act
Oversight of Amtrak’s   calls for all stations to be in compliance by 2015. As
  Compliance with       of July 26, 2010, all of Amtrak stations (482 as of          
    Accessibility       October 2010) were required to be accessible to those
   Requirements         with disabilities; Amtrak missed the deadline. Amtrak
                        has repeatedly requested an extension of the
                        deadline, but Congress has not granted the request.
                        In addition, FRA has engaged the Volpe Center to
                        review and monitor work to bring stations into
                        compliance with the ADA and the Rehabilitation Act of
                        1974 under funding provided by both ARRA and the
                        fiscal year 2010 appropriations act.

                        Submit reports on high-speed rail corridor service
                        studies to Congress
       § 224            According to FRA, available funds have been directed
                        to National Rail Plan development, since the plan is a       
  Passenger Rail
                        prerequisite to this Section to ensure that
  Service Studies
                        designations, extensions and modifications of
                        corridors are cohesive, orderly and responsive to
                        national needs.

                        Establish a process for designation and extension
                        of high-speed rail corridors

       § 224            FRA previously solicited State petitions for designating
                        or modifying high-speed rail corridors through the
  Passenger Rail                                                                     
                        Intermodal Surface Transportation Efficiency Act of
  Service Studies       1991 by eliminating railway-highway crossing hazards
                        in high-speed rail corridors, which was for safety
                        purposes. However, FRA has not solicited State
                        petitions for the purpose intended by PRIIA.




Exhibit B. FR A's Pr ogress in Implementation of Its PRII A
Responsi bilities
                                                                                          18



   PRIIA Section         FRA Responsibility and Progress to Date                    Status

                         Make grants to assist in financing the capital
                         costs necessary to provide or improve intercity
                         passenger rail transportation
        § 301            FRA’s High-Speed Intercity Passenger Rail (HSIPR)
                         program incorporates grants authorized by Secs. 301,
Capital Assistance for                                                                
                         302, and 501. As of February 2, 2012 the HSIPR
 Intercity Passenger
                         program had awarded $9.6 billion to 138 projects.
     Rail Service
                         These projects include development and improvement
                         of high- and conventional-speed intercity passenger
                         rail services, as well as planning activities and
                         feasibility studies.

                         Issue a final rule establishing application and
                         qualification procedures for intercity passenger
                         rail grants
                         FRA missed its October 2010 deadline for issuing the
        § 301
                         final rule, and has been administering the HSIPR
Capital Assistance for   program according to interim guidance. To date, all          
 Intercity Passenger     appropriation acts for PRIIA have authorized FRA to
     Rail Service        administer the HSIPR program without a final rule in
                         place. FRA expects to issue a comprehensive
                         rulemaking for Secs. 301, 302, 501, and related topics
                         after awarding all ARRA and FYs 2009 and 2010
                         grants.

                         Make grants to assist in financing the capital
        § 302            costs for high priority rail corridor projects to
                         reduce congestion or facilitate ridership growth             
  Congestion Grant
                         See discussion of Sec. 301.

                         Establish minimum requirements for the
                         preparation and periodic revision of State rail
                         plans
                         FRA issued a draft outline for its State rail plans in
        § 303            March 2010, but has not finalized a format or data
                         requirements. State rail plan standards have not been        
  State Rail Plans
                         a priority because in fiscal years 2009 and 2010 and
                         ARRA appropriations,         Congress      waived the
                         requirement that States’ rail projects be in an FRA-
                         approved State rail plan to be eligible for grants under
                         PRIIA.




Exhibit B. FR A's Pr ogress in Implementation of Its PRII A
Responsi bilities
                                                                                           19



   PRIIA Section       FRA Responsibility and Progress to Date                       Status

                       Select and approve a new rail tunnel alignment in
                       Baltimore and ensure completion of the related
                       environmental review process
                       In April 2011, FRA signed a $60 million grant
                       agreement with Maryland DOT to fund environmental
       § 304
                       analysis and the preliminary engineering work                   
   Tunnel Project      necessary to approve the new rail tunnel and
                       rehabilitate the existing one. It is unlikely that FRA will
                       meet the September 30, 2013 deadline for the
                       approval of the new alignment, since environmental
                       analysis is scheduled to be completed toward the end
                       of 2014 or during 2015.

                       Establish and carry out a rail cooperative research
                       program
                       In September 2010, FRA signed a $5 million grant
       § 306
                       agreement with the Transportation Research Board,
  Rail Cooperative     establishing the National Cooperative Rail Research             
 Research Program      Program. Research cannot begin, however, until the
                       FRA appoints an advisory board for the Program. FRA
                       officials could not provide an estimated timeline for the
                       determination of the board’s membership.

                       Develop a long-range national rail plan
                       While FRA has not yet published a National Rail Plan,
                       DOT released a preliminary National Rail Plan on
                       October 15, 2009. In 2010, FRA solicited input on
                       national rail issues through outreach events, focus
       § 307           groups and a public docket. On September 28, 2010,
                       FRA provided Congress with a National Rail Plan                 
 Federal Rail Policy
                       progress report. The report indicates that to complete
                       the National Rail Plan, FRA must conduct feasibility
                       analyses, and estimate both investment needs and
                       returns on investment. In September 2011, FRA
                       officials reported that the final plan is still under
                       development.

                       Develop a schedule for achieving specific,
                       measurable performance goals
                       FRA has not begun developing a schedule to achieve
       § 307           its performance goals. PRIIA’s deadline for this
                       schedule was the President’s annual budget                      
 Federal Rail Policy
                       submission to Congress, starting in 2010 and every
                       fiscal year thereafter. According to FRA officials, the
                       schedule is contingent upon finalization of the
                       National Rail Plan.



Exhibit B. FR A's Pr ogress in Implementation of Its PRII A
Responsi bilities
                                                                                         20



   PRIIA Section       FRA Responsibility and Progress to Date                     Status

                       Report to Congress the results of a study to
                       determine the extent to which railroads could use
                       bio-fuels as alternatives to diesel
                       FRA issued a notice of funding availability seven months
       § 404           after the October 16, 2009 deadline for a final report to
 Locomotive Biofuel    Congress. In March of 2011, FRA executed a grant              
      Study            agreement with the University of North Carolina, which
                       will conduct the study and is expected to complete work,
                       including required reports, by June 2013. According to
                       FRA, it could not implement the provision earlier due to
                       a lack of funds.

                       Report to Congress the results of a feasibility
                       study on the use of readily biodegradable
                       lubricants for railroads
       § 405
                       See previous discussion of Sec. 404. An agreement             
 Study of the Use of
                       with the University of Northern Iowa on this feasibility
Biobased Technology
                       study was executed on May 11, 2011. The university
                       is expected to complete its work, including all required
                       reports, by August 2013.

                       Establish procedures and/or facilities for
                       preclearance of passengers traveling from the
                       U.S. to Canada
                       Amtrak has established a pre-inspection process for
                       its route to Vancouver, Canada, and it is currently in
       § 406           discussions with the Department of Homeland
   Cross-Border        Security and Canadian stakeholders for its route to           
  Passenger Rail       Montreal. In the implementation of this provision, FRA
     Service           has focused primarily on the monitoring of
                       developments for Amtrak’s Vancouver (Canada)-
                       bound and Montreal-bound routes and offering of
                       assistance to Amtrak—assistance Amtrak has thus far
                       declined, preferring to work directly with State
                       stakeholders.




Exhibit B. FR A's Pr ogress in Implementation of Its PRII A
Responsi bilities
                                                                                        21



   PRIIA Section        FRA Responsibility and Progress to Date                   Status

                        Report to Congress on the results of a study and
                        actions to streamline compliance with historic
                        preservation requirements and on actions to
                        expedite decision making for capital projects
                        involving properties of disputed historical
                        significance in the States of Alaska and North
                        Carolina
       § 407            FRA has contracted with an outside vendor to study
Historic Preservation   ways to streamline compliance with historic                 
    of Railroads        preservation requirements. The study is underway,
                        and the vendor plans completion by March 2012.
                        According to FRA, there are no urgent issues in either
                        Alaska or North Carolina that require expedited
                        coordination, the Agency will complete its reports to
                        Congress—its primary responsibility under this
                        Section—sometime      after the     contractor    has
                        completed its study.

       § 501            Make grants to finance capital projects in
                        designated high-speed rail corridors                        
  High-Speed Rail
  Corridor Program      See discussion of Sec. 301.

       § 501            Issue regulations for the high-speed rail corridor
                        program                                                     
  High-Speed Rail
  Corridor Program      See discussion of Sec. 301.

                        Issue a request for proposals for projects in any of
       § 502            the 10 designated high-speed rail corridors or the
                        Northeast Corridor                                          
Additional High-Speed
     Rail Projects      FRA issued a Request for Expressions of Interest on
                        December 11, 2008, 5 days before PRIIA’s deadline.

                        Evaluate high-speed rail corridor proposals
                        With assistance from the Volpe Center, FRA has
       § 502
                        completed an initial review of the eight proposals it
Additional High-Speed   received. Five proposals were preliminarily deemed          
     Rail Projects      responsive and identified for further review within the
                        Department of Transportation. No decision has been
                        announced.




Exhibit B. FR A's Pr ogress in Implementation of Its PRII A
Responsi bilities
                                                           22



EXHIBIT C. MAJOR CONTRIBUTORS TO THIS REPORT


Name                                    Title

Toayoa Aldridge                         Program Director

Jack Burriesci                          Project Manager

Nichole Verdejo                         Senior Auditor

Matt Williams                           Senior Analyst

Olivia Starr                            Analyst

Susan Neill                             Writer/Editor




Exhibit C. Major Contributors to This Report
           APPENDIX. AGENCY COMMENTS                                                                        23




           U.S. Department of
                                                           Memorandum
           Transportation
           Federal Railroad
           Administration


 Date:     February 15, 2012                              Reply to Attn of:


Subject:   FRA Response to OIG Draft Report on Implementing Passenger Rail Investment and
           Improvement Act of 2008 (PRIIA) Responsibilities
From:      Joseph Szabo
           Administrator
           Federal Railroad Administration

   To:     Mitch Behm
           Assistant Inspector General
             for Rail, Maritime, and Economic Analysis

           Over the last few years, the Federal Railroad Administration (FRA) has completed implementation
           of nearly all the provisions in the Passenger Rail Investment and Improvement Act of 2008 (PRIIA).
           This achievement is particularly noteworthy in light of both the sweeping provisions of the Act, and
           the need to simultaneously and expeditiously address the requirements of the American Recovery
           and Reinvestment Act of 2009 (Recovery Act), especially its high-speed rail provisions.
           In addition to recognizing FRA’s accomplishments with regard to PRIIA, the OIG draft report
           highlights several open issues, including completing a national rail plan so as to convey to all
           stakeholdersthe Congress, the States, the railroad industry, and the American publica vision of
           the industry’s future. The draft report also indicates that FRA needs to issue the final rule
           containing methodological guidance for estimating demand, revenues, costs, and benefits of
           programs and projects. While efforts continue in both areas, FRA has already made considerable
           information available regarding a vision of rail’s future and has made comprehensive interim
           guidance available to grant applicants and the public.


           FRA Has Conducted Considerable National Rail Planning
           FRA has made significant progress in implementing the national rail planning (NRP) provision in
           PRIIA, but subsequent legislative requirements that exempted State rail plans from High Speed
           Intercity Passenger Rail (HSIPR) grant prerequisites demanded a reassessment of the NRP
           approach. FRA met the one-year PRIIA deadline for submitting a preliminary national rail planning
           document in October 2009. Moreover, to keep all stakeholders fully apprised of the processes at
           work and the progress achieved, FRA proactively submitted a national rail planning progress report
           less than one year later. These reports demonstrate FRA’s solid progress and provide an effective
           program “blueprint” for further advancement in planning.


           Appendix. Agency Comments
                                                                                                            24




PRIIA required that national rail planning build upon State rail plans to create a national vision,
rather than directing FRA to dictate a Federal vision for rail. Specifically, PRIIA tasked States with
developing statewide rail plans to set policy involving freight and passenger rail transportation
within their boundaries, establish priorities and implementation strategies to enhance rail service in
the public interest, and serve as the basis for Federal and State rail investments within the State; it
further called for the NRP to be “consistent with approved State rail plans.”
Three months after PRIIA’s passage, however, the Recovery Act exempted the HSIPR Program
from State planning requirements, effectively establishing HSIPR implementation and job-creation
as a priority over State rail planning, and, in turn, delaying completion of any “long-range national
rail plan” that would be “consistent with” State plans. The Recovery Act and the FY 2010
appropriation provided almost five times more funding to the HSIPR Program than was
contemplated in PRIIA. These appropriation acts substantially accelerated the program and
necessitated a shift in the approach to developing the passenger rail elements of national rail
planning.
FRA has ongoing planning efforts that will continue to provide ample guidance, from a Federal
perspective, for a national vision for passenger rail that does not rely on completed rail plans from
each State. For example, FRA has completed a strategic plan for high-speed rail, “High-Speed Rail
for America,” published in April 2009; issued a series of interim guidance and funding availability
notices for the HSIPR Program, beginning in June 2009; and, in the FY 2012 budget proposal,
provided a specific six-year vision and implementation strategy for the future of high-speed and
intercity passenger rail in America. Additional efforts are ongoing that will provide both Federal
and regional perspectives on high speed rail planning, which will be completed over the next couple
of years. FRA intends to finalize its State planning guidelines in order to assist the States and to
advance this PRIIA prerequisite for national rail planning.
Extensive Guidance is Available for HSIPR Implementation
FRA has produced comprehensive HSIPR guidance for stakeholders as called for in PRIIA, and
subsequently accelerated in the Recovery Act and FRA’s FY 2010 appropriation1. These
subsequent appropriation acts recognized that promulgation of a regulation would have taken too
long to be of use under the accelerated time frames for program implementation called for in the
legislation, and therefore required FRA to immediately implement the HSIPR Program on the basis
of interim guidance rather than a final rule.
FRA’s interim guidance covered all program elements critical to the preparation of an application to
the program. The criteria for evaluating applications were fully described under the main headings
of public return on investment, project success factors, and timeliness. That FRA received a
cumulative total of $77 billion in HSIPR project applications from 39 States, the District of
Columbia, and Amtrak for only $10.1 billion in available funding—a ratio of over seven to one—
demonstrates the adequacy of the interim guidance in conveying program requirements and gaining
the interest of potential participants. Consistent with Congressional direction, initial
implementation of the HSIPR Program has been successful under interim guidance, with over


1
    See PRIIA, Pub. L. No. 110-432, § 301, 122 Stat. 4936 (2008); ARRA, Pub. L. No. 111-5, 123 Stat. 208 (2009);
    Consolidated Appropriations Act of 2010, Pub. L. No. 111-117, 123 Stat. 3056-57 (2009).


Appendix. Agency Comments
                                                                                                    25




 $1.4 billion in construction already underway and with projects around the country creating jobs
and promoting economic development.
FRA recognizes the necessity and substantive value in completing formal rulemaking activity for
HSIPR, when circumstances and national priorities allow. However, the OIG report does not offer
the important additional context, which more extensively conveys the subsequent statutory
imperatives and modified requirements.
Recommendations and Responses
OIG Recommendation 1: Develop a comprehensive action plan, including milestones, to complete
all outstanding PRIIA responsibilities.
FRA Response: Concur. FRA has maintained a continuous planning effort since PRIIA’s passage
through the Department’s Regulatory Review process, which fulfills this recommendation.
However, in order to explicitly demonstrate fulfillment of this recommended action, FRA will
complete a “PRIIA Action Plan” by July 1, 2012. This Action Plan will synthesize all of FRA’s
PRIIA-related Regulatory Review materials in order to describe FRA’s intended treatment of each
remaining PRIIA requirement, with associated milestones.
OIG Recommendation 2: Complete the National Rail Plan and include in it measurable
performance goals and clear stakeholder roles.
FRA Response: Concur-in-part. National rail planning, as described above, is a continuous
process involving multiple products, some of which have already been issued, with further
deliverables to be released in the future. Moreover, while Congress subsequent to PRIIA deferred
the requirement for State rail plans, FRA has developed draft guidelines, and will issue final
requirements by March 31, 2013, in order to advance this PRIIA prerequisite for national rail
planning.
OIG Recommendation 3: Publish final rules for PRIIA grant programs that include clear, detailed
directions for prospective applicants.
FRA Response: Concur. While the FRA intends to complete formal rulemaking activity for its
grant programs, it is important to recognize that its Interim Guidance, as modified by subsequent
Notices of Funding Availability, already includes clear, detailed directives for prospective
applicants. Nonetheless, FRA intends to issue a Notice of Proposed Rulemaking on this topic by
October 1, 2013.
OIG Recommendation 4: Confirm the National Rail Cooperative Research Program’s advisory
board membership and ensure that the members act in a timely manner to initiate required research.
FRA Response: Concur. This recommendation was fulfilled as of January 3, 2011, by letter from
the Federal Railroad Administrator to the Executive Director of the Transportation Research Board.
Documentation of the action was provided to the OIG under separate cover, along with a number of
other technical comments and updates that offer additional information on the status of FRA’s many
accomplishments in implementing PRIIA.




Appendix. Agency Comments
                                                                                                   26




We appreciate this opportunity to offer additional perspective on the OIG draft report. We also
appreciate the courtesies of the OIG staff in conducting this review. Please contact Neil Moyer,
Chief of the Financial and Economic Analysis Division, RPD-15 (telephone 202-493-6365), with
any questions or if we may be of further assistance.




Appendix. Agency Comments
